                                              ::;
                                              ~~~




 s. DEPARTMENT OF HEALTH AND HUMAN SERVICES
   OFFICE OF INSPECTOR GENERAL



INTERNATIONAL MEDICAL CENTERS

  SERVICE DELIVERY EVALUATION




               OFFICE OF

     ANALYSIS AND INSPECTIONS





                                                1. "
                INTERNATIONAL MEDICAL CENTERS

                 SERVICE DELIVERY EVALUATION





RICHARD P. KUSSEROW                DATE OF INSPECTION
INSPECTOR GENERAL                      MACH 1987




CONTROL iOAI- 12- 86-00096
                Off ice of Inspector General


The mission of the Office of Inspector General (OIG) is to
promote the efficiency, effectiveness and integrity
programs in the United States Department of Health and Human
Services (HHS). It does this by developing methods   to
detect and prevent fraud, waste and abuse. Created by
statute in 1976, the Inspector General keeps both the

Secretary and the Congress fully and currently informed

about programs or management problems and recommends

corrective action. The OIG performs its mission by

conducting audits, investigations and inspections with
approximately 1, 200 staff strategically located around the
country.
            Off ice of Ana1ysis and Inspections


This report is produced by the Office of Analysis and

Inspections (OAI), one of the three major offices within the
OIG. The other two are the Off ice of Audit and the Off ice
of Investigations. OAI conducts inspections which are

typically, short-term studies designed to determine program

effectiveness, efficiency and vulnerability to fraud or

abuse.
                            This Report


Enti t1ed " InternationalMedical Centers Service Delivery
Evaluation, "this study was conducted at the Health Care
Financing Administration s (HCFA) request to obtain, in an
objecti ve way, Medicare enrollee attitudes about services
and medical care received from and through International

Medical Centers (IMC). IMC is the largest Medicare HMO in
the nation.
The report was prepared by the Office of Analysis and
Inspections, Reg ion IX and Headquarters, Health Care Branch.
Participating in this project were the following people:
San Francisco Region	                 Headquarters
Thomas purvis (project Leader)	       Mary Hogan (project   Leader)
                                      Karen Reynolds

                    Atlanta Region Staff

                        TABLE OF CONTENTS

       SECTION                                     PAGE

       Executive Summary.

       Background
 II.   purpose. .
III.   Methodology. .

 IV.   Findings
       A. Overall Satisfaction with the Plan. .
       B. Enrollment.

       C. Explanation of Benefits
       D. Disenrollment .
       E. Utilization of Services

       F. Choice of Physician

       Conclusion
 VI.   Appendices
       A. profiles of IMC' s Medicare Enrollment

       B. Analysis of Telephoned and
          Not Telephoned Groups

       C. HCFA Comments on OIG Draft Report
 EXECUTIVE SUMMARY


  Since 1982 , risk-based health maintenance organizations (HMOs)
  have grown to be maj or providers of health care to Medicare
  beneficiaries. The Health Care Financing Administration (HCFA)
  pays these HMOs on a capitation basis, in which an HMO receives a
. fixed amount for each Medicare beneficiary it enrolls , in return
  for the provision of all covered health care services to these
 people.   While an incentive for efficiency, this arrangement also
. creates the potential for  diminished quality of care if the HMO
  sacrifices services in order to cut    costs.The Office of
  Inspector General (OIG) conducted this evaluation to determine , in
  an objective way, Medicare enrollee attitudes about the services
  and medical care they had received from International Medical
  Centers  (IMC).  This was one of many OIG initiatives to examine
  various aspects of IMC in response to the Department' s interest in
  resolving numerous complaints about IMC' s services to
 beneficiaries.
 In order to gain experience with the concept of risk-based con­
 tracting with HMOs for Medicare services, HCFA selected 32 HMOs
 (including IMC) to serve as demonstration projects. Effective
 August 1982 , IMC began enrolling Medicare beneficiaries under
 these provisions and quickly achieved rapid growth in their
 numbers through a variety of aggressive marketing strategies.
 These included: intense media coverage featuring endorsements from
 celebri ties , bounty payments to members to facilitate word-of­
 mouth endorsements and sign- ups by friends , and personal appeals
 at senior centers and other such      gatherings.
                                                 IMC has grown to
 have the largest Medicare beneficiary enrollment of any risk
 contract HMO in the nation , with 137 814 Medicare beneficiaries
 enrolled as of May   1986.  These people represent about one-fifth
 of the total national Medicare beneficiary enrollment in risk-
 based HMOs.

 IMC' s initial operations were in the Miami , Florida area.  Its
 rapid growth was accommodated through expansion to a highly
 decentralized network model of 186 affiliated provider groups
 covering five Florida counties. Seven of these affiliates were
 wholly-owned by IMC , but the remaining 179 were private entities
 under contract to IMC. The sizes and financial viability of the
 affiliates varied , and the per capita reimbursement paid by IMC to
 each of them was substantially less than the amount IMC received
 from HCFA. In addition , most of these affiliates exceeded the
 statutory limit (presumed to prevent quality of care problems)
 that no more than 50 percent of their membership be Medicare and
 Medicaid enrollees. (In April 1985, HCFA had granted IMC a 3- year
 exemption from this requirement, in an extension of one of its

- terms as a demonstration proj ect.
 In mid-1986 , a random sample of 351 current and former IMC

 Medicare beneficiary members was selected from HCFA records to be

 interviewed. OIG was able to complete interviews (by telephone

 and/or mail) with 290 (83 percent) of the sampled beneficiaries.

These beneficiaries were asked to summarize their   overall
satisfaction with IMC. Major findings included:
     Almost two-thirds of the people contacted (188 of the 290)
     expressed some level of satisfaction with IMC.
     Those members (23 percent) who expressed dissatisfaction
     complained about difficulties in getting specialist care
     care that did not meet their expectations, problems with drug
     prescriptions , their assignment of physician , and
     difficul ties with payment for services received outside the
     geographic area served by IMC.
     Of the 17 percent who were very dissatisfied (50 people   out
     of the 290 contacted), most (36 people) had already
     terminated their IMC membership.
     Through adverse publicity, reported investigations, and high
     staff turnover , members were aware that problems existed with
     IMC. They were concerned about the effects this situation
     might have on what most considered to be a satisfactory
     heal th care arrangement.

     IMC members used fewer services and were hospitalized at a

     much lower rate than the Medicare population in general.
     This indicates that the capitation payment which HCFA makes
     to IMC may have been set higher than appropriate.
     Some beneficiaries claimed that IMC affiliates sometimes

     refused to provide certain services covered by Medicare , and

     in two reported cases, openly encouraged beneficiaries to

     cancel their memberships just long enougp to have Medicare

     pay for those services.
     Most beneficiaries interviewed by telephone (152 out of 189)
     recalled receiving information on how to use IMC' s services
     (usually in the form of a brochure). However , about a third
     of these beneficiaries indicated that there were aspects of
     IMC' s medical coverage that they did not fully understand.

     For many beneficiaries , saving money through their enrollment

     in IMC was more important than any perceived shortcomings in

     the quality of care they received.

The following OIG recommendations were made to HCFA:

     Since many beneficiaries indicated that there are aspects of

     IMC' s medical coverage that they do not understand, HCFA
     should develop standards for disclosure by IMC of the 1 imi ts
     and exclusions to its coverage.
     HCFA agreed in principle with this recommendation , noting

     that they had strengthened the notice of enrollment to new

HMO members. However , due to the provisions of the
Consolidated Omnibus Budget Reconciliation Act of 1985 , which
requires HCFA to review all HMO marketing material , they felt
that additional changes were unnecessary at this time.

HCFA should revise its lock-in notice to new enrollees to
advise them that Medicare is making a monthly payment to the
HMO on their behalf , and to remind beneficiaries of their
right to complain if they receive inferior care.

HCFA concurred with this recommendation.



In light of the number of IMC members who spend more than 60
days each year away from the IMC service area , HCFA should
re-examine its current policy for HMO out-of- plan services.
HCFA did not concur with this recommendation , noting that
the lock- in provision is a basic premise of the HMO concept.
Furthermore , since HMOs are an alternative to the fee-for­
service system , Medicare beneficiaries who are disadvantaged
by this provision have the choice not to enroll in an HMO.
    BACKGROUND

International Medical Centers (IMC) began business initially

in the Miami, F10r  ida, area. In 1981, it began enrolling
Medicare beneficiaries under a Medicare cost reimbursement
contract.   In 1982, it was selected as one of several HCFA
HMO risk-sharing demonstration projects. As a risk
contractor, IMC was guaranteed a standard monthly payment
for every Medicare beneficiary it  enrolled.   Another
                                            I S waiver of the
important feature of this project was HCFA        I S Medicare
statutory requirement that the percentage of IMC 

beneficiary enrollment could not exceed 50 percent of the

total membership. This requirement is perceived as a
                                                    " will
quali ty assurance measure since " commercial clients
not enroll or stay in a poor- quality plan.


Risk contract operations began in August 1982 with about

  000 members. This number grew to 18, 000 by July 1983 and
in the following year quadrupled to 78, 000 by July 1984.
In the months of January and February of 1984, approximately
30, 000 new beneficiaries enrolled. As of May 1, 1986, IMC'
Medicare enrollment was 137, 814, down from a high of 139, 120
in January  1986.   IMC had expected to enroll about 202, 400
Medicare beneficiaries by March  1988.   However, IMC capped
its Medicare enrollment at mid- 1986 levels in response to

criticism it received for not actively working towards the


its
March 31, 1986 deadline that no more than 50 percent of

      enrollment be compr ised of Medicare benef iciar ies.
According to HCFA records, IMC Medicare enrollment

represents about one- fifth of the total national Medicare

enrollment in risk contract HMO I


The following graph, using data developed by OIG, illustrates

the growth in IMC I S Medicare beneficiary membership.

    140

    130

    120

    110

    100

-------------------------------------------------------------
------------------------------------------------------------




More detailed profile information of IMC can be found in

Appendix A.
IMC became highly decentralized, providing services through
a " network"model of affiliated groups of physicians and
hospi ta1s. Seven of these 186 aff i1iates were wholly- owned
by IMC, and the other 179 were under contract.

Under these contract arrangements, IMC is to pay a Part B
capitation amount and a Part A supplemental capitation rate
to each affiliate every month. These amounts vary by
aff iliate, but average $69. 75 for the Part B capitation
rate, and $17. 69 for the Part A supplemental rate, a total
($87. 44) which is substantially less than the amount that
IMC receives from HCFA (approximately $300). However, this
amount only covers the nonhospita1 care which the affiliate
must provide, either directly or by contract to a third
party provider ; hospital costs are shared between the
affiliate and IMC.
The following table shows the number of contract affiliates
in each IMC Flor ida county, and the average rate received by
the aff iliates from IMC for Part B in Apr i1 of 1986. These
were obtained from the Office of Health Maintenance
Organizations I Part B reimbursement report.



               Number of       Part B              Part A
County          Contract     Capi tation         Supplemental
               Aff i1iates      Rate                Rate
Broward                       $75.                 $25.
Dade                          $92.                 $23.
Hillsborough                  $56.                 $12.
Palm Beach                    $74.                 $14.
Pasco                         $50.                 $12.
 inel1as                      $53. 77              $12.
All counties     179          $69.                 $17.

In the past 2 to 3 years, an ever- growing number of

complaints have been submitted by IMC Medicare members,

affiliated group physicians and outside providers serving

IMC members. These complaints highlight major problems and
have put IMC under close scrutiny by Federal and State
agencies. The complaints and allegations concern IMC
practices in such areas as marketing, r isk-shar ing with
providers, claims payments and the delivery of medical    care,
and have been subject to high congressional and media
interest.
II. PURPOSE
The purpose of this evaluation was to determine, in an
objective way, enrollee attitudes about services and medical
care received from and through IMC. In light of the many
complaints received about IMC, this evaluation was
undertaken to determine (1) whether complaints received

about IMC reflect widespread and pervasive dissatisfaction

among the general IMC membership, (2) the extent to which

IMC operations may have adversely affected its members and,
(3) areas where additional HHS action may be needed.

III.   METHODOLOG Y

HCFA I S Group Health Plan Master File served as the initial
data source for this evaluation. This file, maintained by

the Bureau of Data Management and Strategy, contains

beneficiaries who have participated in group health plans,
including HMO I S.Two samples were drawn from this     file.
The first, a 20 percent sample (38, 512) of all Medicare

beneficiaries in IMC, was used to profile IMC membership.

The second was a 0. 2 percent sub-sample of 351 living
beneficiaries, who were selected to be interviewed.
Both samples were selected at random, based on the terminal

digi ts of   the Health Insurance Claim Number. This
methodology was used because samples drawn in this way are

weighted in the same way as the universe, and therefore

minimize the potential for drawing a biased sample based on

some preconceived notions about the universe.


Given the short time frame of this evaluation, it was

determined that the only practical way to reach these 351

sample beneficiaries, who were scattered over several

counties in Flor ida, was by telephone. In addition, a few
had out-of-State addresses.


A discussion guide was developed for use in the telephone
interviews and revised after a pretest. A two- phase study
was then conducted. In phase one, 189 telephone interviews
were completed.
Ini tial
       at tempts to reach 162 of the 351 benef iciar ies were
unsuccessful, either because they declined telephone
interviews or could not be contacted despite repeated
attempts.  In phase - two, we followed up by sending an
abbreviated set of questions by registered mail to these
people.  Our findings from telephone discussions and mailed
questionnaires are discussed below.
We were concerned that the results from the sample might be
biased to the telephone interviews and, therefore, conducted
an analysis of four known variables in both the " telephoned"
and " not telephoned" populations. The results of this
analysis are outlined in Appendix  B.  Our analysis showed
that the distributions of these variables in the
 telephoned" and " not telephoned" groups were not
significantly different therefore, we do not expect that
the basic results of the survey would have been different
we had asked all of the questions of both groups.

The following table provides a summary breakdown of the

disposition of the sample:

                                        Number         Percent
     Total Sample                        351            100.
     Questioned by telephone             189             53.
     Ques tioned by ma                   101             28.
     Refused questioning                                 14.
     Unable to locate


We were unable to locate 9 beneficiaries from the original

sample (less than 3 percent of the total) because they do

not live at the addresses on record with the Health Care

Financing Administration or with the Social Security

Administration. To verify the existence of these

beneficiaries, these cases have been referred to our

investigation staff for resolution.

IV.    FINDINGS

      Overall Satisfaction with the Plan


Benef iciar ies contacted by telephone and by mail were asked

to summarize their overall satisfaction with IMC                     their
answers are displayed in the following table and
                                                                   graph.
                                    Number of
Level of Satisfaction
              Beneficiaries                 Percent
Very Satisfied                            138                      48%
Somewhat Satisfied
                                                17%
Somewhat Dissatisfied

                                                                   17%
Very Dissatisf ied
Not Sure

No Answer

Tota 1
                                    290                    100%

Almost two-thirds of the sample beneficiaries expressed some
level of satisfaction with IMC. Of the 50 beneficiaries who
said they were very dissatisf ied, 36 had terminated their
memberships.



                  Beneficiary Satisfaction with IMC


                                Very Satisfied





          Somewhat Satisfied





                                            Very Dissat 1sf ied


                                ( n - 290 

One of the issues the study was designed to resolve was
whether there would be a difference in perceived
satisfaction with services between those with extensive need
for medical care and those who are essentially healthy, with
little or no service utilization           history.
                                           This issue was
not fully resolved by this evaluation.
The following table depicts responses to the question,               " Have
IMC . . . ?"
you had a serious illness or surgery since you joined

                                 Number of
Response                         Benef iciar ies *                Percent
Had ser ious   illness
since enrolling                                                    25. 9 %


Had no ser ious
illness since
enrolling                              116                         61. 4 %

No answer                                                          12. 7%

   This question was only asked of telephoned             interviewees.
Another factor that should be considered has to do with the
beneficiaries I interpretation of the terms " serious illness
or surgery.    In most cases, beneficiaries qualified their
 yes " answers with an explanation. About two- fifths of
these explanations indicated acute problems such as
fractures and infections, or minor surger ies, often
performed on an outpatient basis, such as eye surgery,
 lurpectomies   " or hernia operations.With this taken into
consideration, only 30 beneficiaries had chronic problems or
major surgery, including heart disease and open heart
surgery, prostate surgery, cerebral palsy, leukemia and
other cancers.
One hundred and sixty- four (of 189) beneficiaries responded to
both the " satisfaction "     and "   serious illness "   questions. A
cross tabulation of their responses appears             below.
                                   No ma   jor                   Major
                               illness/surgery           illness/surgery
     Satisfied                 104 (78 percent)            18 (60 percent)
     Dissatisfied                30 (22 percent)           12 (40 percent)
                         Chi-square=3 . 12,   p=O. 08
The above data suggests that healthier IMC enrolleespeople.
                                                       are

likely to be more satisfied with the HMO than sick 

However, this difference is not statistically significant
p value of 0. 05 or less would indicate significance).

of IMc-member beneficiaries stems from 
its structure.
One of the difficulties in measuring the satisfaction levels

                                                          Since
IMC is compr ised of many aff iliate groups, we are not really

measuring satisfaction with one medical service
                                                   entity. As

one beneficiary commented, " I I think (satisfaction) depends
on which clinic you go   to. I   ve heard some bad things, but
my doctor is fine.

The HMO appears, from the beneficiary viewpoint, to meet

                                                    Many
their concerns about the high cost of health care. 

beneficiaries expressed fears that bad publicity might have

a detrimental effect on what they consider to be a

satisfactory arrangement.


The interviews were conducted after and during a period when

publici ty about IMC appeared on television and in newspapers

almost every day. For example, in late May, a Tampa
IMC,
television station presented a four- part series on
highlighting numerous examples of short- falls in quality of

care.   This publicity frightened many of the members we
interviewed.
The following are representative of the many comments

volunteered by beneficiaries:

       The office we go to has only one doctor - it used to
      be packed full, but with all the publicity people are
      scared, and the clinic is empty, or only one or two
      pa tients - people are going back to Medicare.
       So far we are happy, but we see a lot of bad things

      about it on T.V.  We can't afford high- priced doctors.
                                               income. We are
      We are both near 80 and live on a fixed 

      still healthy, so far, thank goodness.


     Enrollment
 Of the 290 beneficiaries who responded to our survey by

 telephone or mail, 220 (76 percent) were still members of
 IMC. On the average, these beneficiaries(170)
                                           had been members
                                               or 59 percent
 for 22 months. One hundred and seventy
                      ~~~      :/'




of the interviewees had been members for more than a year,
and 11 beneficiaries had been with IMC since its inception
in August of 1982.

Many of the beneficiaries we questioned viewed IMC' s plan
as a comprehensive health insurance                 package. In fact,
                                                          three
of them volunteered that they believed the plan covered
catastrophic illness. One of these beneficiaries dropped
out of the plan when she learned that long-term (nursing
home) care 
 as not covered; the other two benef iciar ies are
still members.

In addition, about two-thirds of the benef iciar ies
interviewed stated that the financial advantages of the

health maintenance organization structure were the primary
reason for joining     IMC. Its
                              wide range of services, at no
cost to them, met their concerns for limiting out-of- pocket
costs for health care.


As depicted in the following chart, about 10 percent of the

respondents joined IMC on the advice of a friend or family

member, and 4 percent joined when their personal physician

aff iliated with IMC. Slightly over 2 percent indicated that
the HMO was close to home , and about 1 percent indicated

that they had recently moved to Florida.




                  Why Senef iciaries Joined IMC




                                                                   ..tI
                                                            Convenient to Home





                      I..tJended
             New to Florida

                                                   Other Reasons
              Other                                  111.
                            Doctor Joined IMC

                                     ( n - 290 

         , "





Twelve percent gave other reasons, such as " everybody was
doing it" my old HMO closed" , and "Eight
                                     the HMO had a good
                                          percent did not
reputation for high quality care.
respond to this question.

Responses of the 189 beneficiaries who were interviewed by

telephone indicated that mass advertising clearly does pay

off in terms of attracting members. Eighty- four respondents

(44 percent) said they heard about IMC through advertising

on television, radio, and in newspapers. Five beneficiaries
specifically mentioned a personality endorsement, naming
such people as Glenn Ford, Barbara Mandrell, and Mike
Doug 1as . The second 1arges t number of benef ic iar ies signed
up after they heard a presentation made by IMC represen­

tatives, either at their door or at a special " seminar " or
 lecture     One beneficiary, who disenrol1ed after 10
months, said she was enrolled by a fr ienddoor
                                            who was paid a $50
bounty for signing her     up.Both door-to-      solicitation
                                                      s are pro­
and offer ing bounties as  inducements to join  HMO'
hibited under the risk contract: these cases have been
referred to our investigation staff for resolution.
The following table shows the var iousways in which
interviewed members stated they had heard about IMC:
          How Member s Hear d About IMC
         Advertising                        44%
         Fr iend/family                     19%
         Seminar /lecture                   10%
         Door-to- door
          Doctor /c1inic
          Other
          NA/ don t remember                 12%

    Exp1anation of Benefits

The 189 beneficiaries interviewed by telephone were asked

they had received information on how to use IMC services,
                                                

including emergency care and services outside of the plan

area.  Although 80 percent (152) responded that they did
receive information on how to use IMC services (usually in
the form of a "brochure ), about one-third volunteered that

there were things about IMC membership they did not

 understand.
The following quotes illustrate knowledge gaps existing

among enrollees:

        I don   I t know   what services are available under the
       HMO. "

        I don   I t understand   what is covered when I am in
       travel status.
        If I had had the right information about how IMC

       worked, I would not have enrolled.
        Everything should have been better explained. I
       paid for my own drugs for a year, not realizing they
       were covered.
    Disenro11ment
Twenty-six percent (49) of the 189 beneficiaries we
interviewed by telephone, and 21 percent (21) of the
101 we interviewed by mail had disenro11ed from IMC. These
beneficiaries averaged 9 months of IMC membership but this
distr ibution is skewed; the median length of membership was
about 6 months. Eleven beneficiaries cancelled their
membership within 60 days of joining, and two beneficiaries
were retroactively disenro11ed by HCFA.
Wi th two exceptions, all of these disenrol1ments were
initiated by the beneficiaries, without external pressure
from IMC. The first    exception is a beneficiary who believes
he is still enrolled, while BCFA records indicate that he
disenro11ed in October of        1985.
                                   The man cannot read or
write, but remembers signing " some papers " from IMC when he
was hospi tali zed or around that time. The second is a
woman, listed in HCFA records as having been a member for 7
months, who was particular 1y vehement in her denial of
either enrolling in, or disenro11ing from, any HMO. Both
these situations have been referred for investigation.
When asked why they disenro11ed, 74 percent (52 of a total

of 70) expressed their dissatisfaction with an aspect of IMC

serv ices. The following chart summar izes benef iciary

dissatisfactions:
                                            Number    Percentaqes
Quality of care did not meet                               35%
  beneficiary s expectations
Other reasons    for dissatisfaction                       25%
  wi th   services
Required care not available                                15%
  through the plan
1nabi1ity to see a doctor,                                 13%
  especially specialists
                                                           12%
Wanted personal physician


The eighteen beneficiaries that felt the quality of care

delivered by IMC did not meet their expectations noted

                                         complaints.
problems that ranged from minor to major 


                              statements such as, "
Minor complaints included
                                                     The doctors
don I t speak English
                      n and " The office was dirty...       More
serious complaints were characterized
                                I s health:as" The
                                                those which may
have endangered the patient                         doctor prescribed
penicillin, and my husband     is   allergic to  the  drug. The
                                                      The doctor
doctor never asked about drug allergies " and "
prescribed a dermatological     cream.    When  I  told her that the
cream made my face swell up, and my eyes puff shut, she
wrote me another prescription. The pharmacist told me it was
the exact same thing.

 Problems with referrals to specialists were cited by both

 active and terminated members. One woman, who had been
 unsuccessful in getting an appointment to see a surgeon

 through IMC, sought and paid for a surgeon herself. She

 stated that this surgeon had told her that if she had

 delayed any longer, she would have lost her leg.
                                             

  Eight beneficiaries mentioned that they required care which
  they were told was not available through IMC 1 in four of

  these cases, the care the benef iciary required is a covered

  service under Medicare.


  Of the 18 disenro11ed beneficiaries who did not express

  dissatisfaction with IMC I S services, eight moved away from
  Florida, five did not answer the question, three said they

  never enrolled and two enrolled in error.

  Benef ic iar ies who were interviewed by telephone were asked
  if they requested help in resolving the problems that led to
  disenro11ment. Only a few (12  of 49 who answered the
  question) indicated they had.  Usually their complaints were
  made to the doctor or to the clinic           staff.
                                              Most felt they
  got no help or only very limited help and this lack of
  response helped convince these members to drop out.

       Utilization of Services


  The telephone discussion guide was designed to enable us to
  determine (1) what services the beneficiaries                  were
  receiving,                 (2) the beneficiaries I general satisfaction with


questionnaire
  those services, and (3) whether there were any major
  categories of problems. No specific utilization questions
  were included in the mail
                              1 therefore, analysis
  in this section pertains only to the beneficiaries who were

  interviewed by telephone.
  The 189 beneficiaries we interviewed by telephone represent
  (co11ecti ve1y) 3, 603 months of membership in 1MC. Fifteen
  (15) of the benef     iciar ies we interviewed had never received
  any services from IMC,  either because they are new
  enrollees, they were unable to get an appointment, or they
  dropped out of the plan after they realized what membership
  in an HMO means. These 15 beneficiaries represent 67 months
  of membership, slightly over 4 months per beneficiary.
  Another 27 beneficiaries have used IMC services only once or
  twice 1 they represent 335 months of IMC membership, or an
  average of 12 months per beneficiary.
  The following table shows the number of benef iciar ies who
  reported that they had received particular services, and
  whether or not they were satisfied with those services.
  Services Received by Beneficiaries:     Number and Percenta

Type of Service            Satisfied       Dissatisfied         Tota 1

Phys ical   Examination    117   79%                21%          149
Eye Examination                  84%                16%          106
prescr iption Drugs        119   88%                12%          135
Emergency services               87%                13%
Xrays, lab tes ts          115   91%                             126
Specialists                      59%                41%
Hospi ta1ization                 89%                11%

    Outpatient Services


Approximately eight out of 10 (79 percent) of the

beneficiaries we interviewed had received a physical

examination, and most of them were satisfied with the

quality and thoroughness of that examination. Beneficiaries
who were dissatisfied usually felt that the examinations

were superf icial.
Not all beneficiaries received a physical examination

immedia tely upon enrollment.    Thirty-two benef iciar ies
reported that they did not receive a physical examination

within the first 60 days of membership. Only one

beneficiary volunteered that a physical was performed prior

to her enrollment. (" They sent us to Miami for a physical
first. I  understand they can t do that anymore.     The scope

of this study did not lend itself to determine whether or

not IMC prescreens potential members. A much larger sample
(at least 6, 000 members) would be required in order to

identify those kinds of patterns, including which affiliates

might be engaging in this practice.

About 56 percent of the interviewees (106) had an eye

examination under their coverage with IMC. Most expressed
satisfaction with the examination. Those who were
dissatisf ied gave var ious reasons for their displeasure,

including:   the glasses were " ugly , they had specific
problems that the doctor did not treat, and delays of up to

5 months for an appointment.


 Over 70 percent (135) of the interviewees had received

 prescr iption drugs through IMC; 88 percent of these were

satisfied with what they received. Dissatisfied
beneficiaries mentioned that the HMO only prescribes generic
drugs, dispenses only samples, or requires the benef iciary
to wait several days for a ref ill.
Only 45 beneficiaries reported that they had used emergency
services.  About 13 percent of these expressed dissatisfaction,
mentioning long waits and indicating confusion about where
to get these services, and who should pay.

About two-thirds of the beneficiaries (126) reported that

they had had diagnostic tests performed, either laboratory

tests or x-rays. Most benef iciar ies were satisfied with

these tests, and 82 percent (103) said that their doctor
always explained the results of the test to them.
Seventy-nine beneficiaries had seen a specialist at least
once: 40 percent of these indicated some dissatisfaction.
This is the highest rate of dissatisfaction we observed with
any category of service. Difficulty in getting to see a
specialist was the most frequently mentioned reason for

dissatisfaction. It appears that few specialists are
available for IMC members. Typical comments offered were:

         I saw a specialist once, and when I called to make a
        follow-up appointment, I learned that the specialist
        was no longer wi th    IMC.

          I cou1dn     a urologist because IMC didn I t have
                     I t see
        one available. I waited more months for them to hire
        one. "
     Inpa t ien t Serv ices


Only 19 (10 percent) of the 189 beneficiaries we interviewed

by telephone had been hospitalized. In a total of 23

separate admissions, only two expressed dissatisfaction.


Since hospitalization rates are one indicator of morbidity

rates, it is important to note - that hospitalization rates in

this sample were signif icantly lower than those in the

general Medicare population. This finding indicates that
the capitation payment may have been higher than

appropr ia te .
On average, about 25 percent of the general Medicare

population will be hospitalized in a given  year. If  IMC

members were hospitalized at the same rate, we would expect

48 beneficiaries from our sample to indicate that they had

been hospi tali zed (95 percent confidence interval is 42 to
54 beneficiaries). However, only 19 (10 percent of the
beneficiaries we interviewed) said they had been hospitalized.
To complete the picture of utilization, we asked
beneficiaries whether they had ever been denied services,
whether they had ever had to pay for services , and whether
they had ever used services outside of the IMC service area.

Twenty- four(16 percent) of the 155 beneficiaries who
responded to the question concerning denied services said
they had been told that some services were not covered, or
were unavailable. Ten of these beneficiaries subsequently
disenrolled from IMC. Most of the denials concerned
  ferra1s to specialists, for services that are covered by
Medicare.
In addition, one woman who required a seat-lift chair

reported that IMC told her that they did not cover the

chairs.  She said the IMC representative suggested that she

disenroll and purchase the chair under Medicare, then

   enro1l in the plan. This has been referred to our

investigation staff for resolution.


    Beneficiary Payment for Services


Most beneficiaries (137, or 87 percent of those who

answered the question), indicated that they had never paid

for any services while a member of IMC. Twenty-one

benef iciar ies had paid for some things, often for upgrading

eyeglasses to ones with " nicer frames     Ten beneficiaries

paid for services which they sought outside of the plan when
IMC would not provide the services, or when they could not
get a referral, or when they questioned the treatment that
the IMC doctor had prescribed. Examples of services
beneficiaries stated they purchased outside the plan are:
      I had an eye problem, and it required      surgery. I
                                                        was
      told I would have to go to the clinic and they would

      arrange for it, but I would rather go to the doctor I

      know. I  went to my doctor, and had the operation, and
                                    I t understand why I can I t
      paid for it myself. I   don
      to the doctor of my own choosing.


      I have a heart condition, and I see a cardiologist
      twice a year. I pay for these visits myself because I
      don t feel the competence is there (with IMC).
    Out-of-Area Services
Many of the complaints that HCFA and other agencies have
recei ved from IMC members concern problems wi th seeing
physicians or obtaining hospital care while the member is
out of the area.

According to HCFA records, about 3. 5 percent of the active
IMC Medicare members were not Florida residents at the time
of this evaluation. Ten (or 3. 5 percent) of the benef iciar ies
in our sample had non-Florida addresses. Two died during
the survey period.  Of the remaining eight, five terminated
their IMC memberships and two maintain north/south life
styles.
Since many Medicare IMC members are retired, they frequently
spend part of the year (usually sumers) away from Florida.
When they have to use a physician, or go in the hospital on
an emergency basis, they are supposed to notify IMC and get
author ization, preferably in advance. The same is true for
emergency care wi thin the area. Much confusion existed
around this issue.   Beneficiaries, hospitals and physicians
questioned the terms of the member I s medical emergency
coverage, which resulted in disputes about who was
responsible for payment for those services.

Nine of the 139 beneficiaries who responded to the question

indicated that they had received some services while outside
of the IMC service area in  Florida.   Four of these
benef iciar ies had no problem in getting IMC to approve and
pay for the care. Three beneficiaries mentioned problems
stemming from the definition of emergency care and prior
approval. One beneficiary disenrol1ed in order to get
services paid by Medicare: " IMC doesn t cover North
Carolina, so I went back on Medicare for the
hospi tali zation, then joined back up with IMC.   Another
beneficiary offered the comment, " We spend a good part of
the year in Connecticut, and the plan doesn I t work well when
you go out of state, so we disenro1led. 

       Choice of Physician


We questioned beneficiaries about several aspects of service
delivery which are common to HMO' s in order to determine    the
respondents I attitudes. Not all benef iciar ies answered  these
                                                I S services
questions because some had simply not used IMC
enough to see any doctor consistently, or to be able to
judge how well the HMO works for them.

HMO'   s are often set up like clinics 1
                                     that is, the member has
no choice of a physician and is seen by any available staff
doctor.  Most respondents (101, or 53 percent) indicated
they were not able to choose the doctor they wanted.
Although some beneficiaries felt that their inability to
choose their doctor was strong enough reason(63,
                                              to disenro11,
                                                 or 62

most said that this did not matter to them 

percent) .
Even though most beneficiaries did not choose their doctor

ini tia11y, they generally continued to see the same

physician once treatment was started, thus ensuring some

consistency of care. Of the 150 beneficiaries who responded

to this question, 90 said they saw the same doctor each time

they went. Fifty-  four saw any available doctor, while six

said they usually saw their primary physician, but in

emergencies or other situations, would go to any available

doctor.
 Beneficiaries were asked about how they arranged to see

 their doctors. Of the 152 beneficiaries who responded to

 this question, only 5 indicated that they do not make
 to.

 appointments, but just go to the clinic when they need
 The remaining 147 respondents said they usually   make
                                           (52) said    an
they

                                                     that
 appointment, and about a third of these
 see their doctors on a regular basis, making the next

                                            other beneficiaries

 appointment at the doctor' s office. The
 said that they call to schedule their appointments.

                                              well, some

 While this system seems to work reasonably
 beneficiaries expressed dissatisfaction in getting

 appointments. This problem seems to be more pronounced when
  the benef iciary is trying to see a specialist, but a few
                                                         or more

  (17, or 9 percent) indicated that they had to wait 2

  weeks for an appointment with a non-specialist 

                                                  physician.
    CONCLUSION

All in all, most survey respondents feel that the concept
behind IMC is a good one, and that there are bound to be
problems with any new system of health care  delivery.  While
some beneficiaries have encountered problems that they
consider serious enough to cause them to disenro11, many
others feel that the problems are tolerable when weighed
against all of the benef its of membership. In particular,
two-thirds of those interviewed mentioned the financial
advantages of HMO membership as their primary reason for
joining IMC. For many respondents, saving money was more
important to their satisfaction with IMC than quality 

care.
Respondents' perceptions of the quality of care they
received from IMC varied: some found it to be consistently
high; others found it so poor that they canceled their
memberships. A considerable number had had very little
exposure to IMC I S services, and therefore were unable to
comment on the quality of care. The scope of this study did
not permit cross tabu1ation of quality of care responses to
where the services were  received.   IMC I s structure -- a
network of independent aff i1iates, as well as some
wholly-owned by IMC -- may account for the range of opinions
on quality of care.
IMC Medicare enrollees appear to be healthier than the
Medicare population as a whole. We found most respondents
to be alert and articulate. However, although most were
aware of the benefits they are entitled to, about a third
did not understand one or more aspects of their HMO
coverage. This situation may or may not be true for
Medicare beneficiaries who are members of other HMO'
Given that HMO' s are a new concept in health care coverage
for many elderly beneficiaries, HCFA I S implementation of our
recommendations for strengthening enrollment notices may
help to prevent future misunderstandings about coverage
provisions.
              APPENDIX A



prof iles of IMC' s Medicare Enrollment

           profiles of IMC' s   Medicare Enrollment

A random 20 percent sample of current and former members of
IMC was selected from HCFA' s Group Health Plan Master file,
to be used in developing a profile of that HMO' s membership.
Membership growth (enrollments and disenro11ments), length
of membership, and the residence and age of members were
examined; the results were presented in the tables that
follow.
Table 1 shows the membership growth of IMC from August 1982
to January 1986.  The first three columns in this table
reflect sample counts and show the number of new enrollees,
the number of members who withdrew from IMC (through
termination of their eligibility to Medicare benefits, as
determined by the Social Security Administration, or through
a cancellation, or death), and a cumulative net enrollment.
The last column shows a projected cumulative net enrollment
for IMC, as of the start of each month.

Table 2 shows the length of membership in IMC for active and
inactive members. In December of 1985, about 60 percent of
the active membership had been with IMC for more than a
year, with the average length of membership being 15 months.
About 6 percent of the active members had been members for
more than 3 years. Members who cancelled generally did so
within the first year of membership, with the average being
around 7 mon   ths .
Table 3 shows the area of residence of the active membership
of IMC. According to HCFA records, about 3. 5 percent of the
active IMC members were not Florida residents in December
1985.
Table 4 shows a distribution of IMC active members, by age.
The average IMC member was 72 years old, and about 80
percent of IMC I s total membership was between the ages of 60
and 80. Only about 2 percent of the membership was 90 years
old, or older.
           ;.
           ( . -.  ..
           .()..-'-!'.(-?
               ..;:,  ---
                      --''':__
                            .:                 .-:..
                                                   ' "..-,
                                                -j;.-
                                               '':::'  -- :,..
                                               ..-......
                                                      --   .--
                                                            ...,                 ..-..
                                                                                   ():
                                                                                -=,.:.;-.-:
                                                                                ...:.  .---
                                                                                         /''--
                                                                                             '..'
                                                                                           ,""            ..--
                                                                                                          ..:::,
                                                                                                          ""
                                                                                                          ':'
                                                                                                          -"
                                                                                                          ::'::
                                                                                                            ::.
                                                                                                             :.       ---
                                                                                                          .:.. 'j-;.;.-      ..,..:.
                                                                                                                             ..-,
                                                                                                                       ..' .."".-
                                                                                                                      :;,
                                                                                                                ,.":. ::... ::,             ..-!..-,'-..---
                                                                                                                                            -"-
                                                                                                                                            ..':::
                                                                                                                                            ':.         ,­
                                                                                                                                                        .. --
                                                                                                                                                  ::'"., ,;:,
                                                                                                                                            '-. :::
                                                                                                                                            -:-:
                                                                                                                                            :.: .::.
                                                                                                                                                 ::-          ::.
                                                                                                                                                               ';.':..
                                                                                                                                                          ; -'-,..
                                                                                                                                                              (...,:::
                                                                                                                                                              ;:.    .;. ()
                                                                                                                                                                    :;-
                                                                                                                                                                  . :;   ::-'




Table 1:              1M Enollmts and                                Dise1l1ts,                     1982 though 1985
                                     ( 20 Percent                  Sa1e      File
                                                                          Dea_ th-:
                                           \leloJ                          ncel­                         I--et                         Est.
                                           oll ees SSA                        Te                    Enr- ol1 mt                        TDt­

           :()-! 82                                                                                                 51E                                      S;'
           ()9.. -_.­                           .11 u                                                       1 , 62t::                                   :0   13(;
                                                                                                              1) E:13
                            Ci..::              1 '                                                                                                             ' e. :.:'

           11 '                                                                                                         139                 1 (:. ,
               'I.
            L -­                               ?9()                                                                     '1:29               12, 1'­
           () 1             =:3                 ... "7                                                    2, 75(:'                           3 ; 750
                                                                                    f;).                            obb                     1 .:+ , .
                                                 i. : "                                                                     t.              15"
           0/1- (                                                                   8i)                                     ")7                   5 , E:35
                   5 8:                        :31                                                                      319                 1 ie, ; 5'
                                                                                       -' t:                                                17"/
                                                                                                             )Ij'
                 E::                            175                                                                       ':'rti            1. E                   L1­


           ('8   f:::                                                                                                                       18 :- E:­
           (."7' 83                                                                 5S'                     3; 8,q- E.:                     J. 7"

                   . /83                        13'                                                                       .:r.                    9; -; i 5
                       If.                                                                                              513                 22 . 5!.
                 2.. ....                      .i­                                   -;.1                                 :: 4                               I:;   k. \j
                                             .1.                                                            7 , I! 75                                          ;r-:c:
           1)1 :34­                           .:".0. ':7
                            ELI              3=79                                      :19             1. i.) ,         ::i35                                      l,.
           Cj.              :::4              15()h                                                    11; 718                              5E:              S9(j
                              ::4                 ::5t,                                                1.3, C)lC                            t:.         z: :

              )=; :34                         t21                                                      13;; t:.                  :Y'        bE.          ; (:":;5
                 f)
                                              .I. r=!
                                                  --C                           4-(;.1                                  1'7"1­
           n--         iE4                                                      36.:1                  1.5         , t:,   ()2              7 E.: OJ .:) 1 (i

           i)8./            c:.:l             1 (iS7                            4:21                        t.     , 2::E:                  a 1 , 1 ::0
           ()S;'       .I   E; it             11 c.                             .. c:..                            , 12.:j­                                  :=L
            1 (             E:.:l             1191                              32C?'                              ; 986                    8S'          ., S:'    3\)
            11                                1248                                                     18 ; (::82                                        oj /1!

            12/84                             1..                               ::81                   i 9              706                                  530
            \) 1 ./ 85                        .t()3\)                           2t..                   2() , '!1- 6S:'                 l.                , 345
           i)2/                               1301                                     1.­                              :.1-57                               285
            ()3 / 85                          105t:                                    1. c.           22               199            11 (; , S'
            (:14. / E:5                         850                             396                    22. c:.                         113, =65
            05 85                               68:3                            577                    22, 761                         113  8()5
            ()6/85                             693                               lIB                   23               i)36           11 5 180
            07/85                             1033                              ""C" ,.,
                                                                                 ,j..Q                              , 711              11 E: , 555
            ()8l85                              74-7                            i!.                                 ; 959              11 9                    795
            09/85                                564                             397                             :1-,   12t.           12(J 63(:1
             1 () ,/                                  ()6                        405                   2A:l                            12=, 135
             11,. 85                          1072                               392                   25, 1                ()7        125, 535
                             c..-.            18117'                                                   26 ,              j5tJ          .i32 78(;
                      1/86                    1462                               19'1                  27 ; 82'                        .139, 120
-----------------------------------------------------------
- -- -- ------ - ---- ----
---                    --- --------------------------------
                            -------------------------------
                               ------
                           ------ -- ---
===========================================================
    ---------   - - -




Table 2: Length of Membership in IMC, Active and Inactive

Members
                                 Number of Members


Length of Membership         Acti ve              Inactive
1 month or less                471 ( 5 . 3%)      582 (19. 6%)
2 - 12 months                  772 (35. 1%)       019 (62. 2%)
13 - 24 months             12, 743 (45. 8%)       282 (15. 9%)
25 - 36 months              2 , 214    (7. 95%)   164 ( 2. 0% )
37 months or more             633      (5. 9%)          (0. 3%)
Total                      27, 833                073
-- -- -----
      - - -    --           --- - -- --- -- ---- -- -- - -- ---------
                    -- -- -- - - - - -   --   - - -   ---- -- --   - - ---------------------
                                                                 -- ------ -- ----- -- ----- ----




Table 3:                   Area of Residence (20% Sample File)

                         AREA                                       ACTIVE           INACTIVE

( 0) New Eng land                                                        217             188
(1) New York-Pennsylvania                                                325             261
( 2) Atlantic Coast
( 3) Deep South (except F10r ida)                                                               (88. 9%)
     Flor ida                  26, 849 (96. 5%)                                          178
( 4) KY, OH, IN, And MI            200                                                   183
( 5) North Central
 (6) Central

 ( 7) South Central
 ( 8) Wes t
 ( 9) Far Wes t
              Unknown
Total                                                              27, 833                073
                          (j()   -.                                  'j'   -.. :"""




               Distribution                        of IMC                         Members, By Age
                                                    20           Rondom Sompl.




Eli
:Ie
.. II




                                                                                                                         100




   TD. b 1 i;? ':         Di::ti- i but". CHi 0 r          he j- i2IT,bel- ::h i p b '   !-i q =- ;-'i !,- Q i   . f:;
                                           ( 2()         Rando San p 1 p
                                                            :::iCt:i. \/-2
                    Agc          Gt- OUP                    i"lembet­

                                                                               :'7
                          30 - 39
                                         154
                          :lO -
                                               .1 ,.

                          5C) -
                                           545
                                                                           ()(J2
                          70 - 79
                                 13150
                          80 - 817'
                                 4274­
                          90 - 99

                          100 +


                    MODE is 67                 (1, 71 9
    melnbers)
                      lEAN is 72
                    i--

                    RANGE is 20 - 106
 yeat­
                      APPENDIX B



Ana1ysis of " Telephoned" and " Not   Te1ephoned" Groups

A random 0. 2percent sample of current and former members of
IMC (351 Medicare beneficiaries) was selected from HCFA'
Group Health Plan Master file for this study. Of the
original sample of 351 beneficiaries, we were able to

contact 189 by telephone.

We were concerned that the results from the telephone
interviews might be biased to the group that was contacted
by telephone and, therefore, conducted an analysis of four
known variables in both the " telephoned" and " not
telephoned" groups. The results of that analysis are
outlined below.
    Proportion of males to        females:
                                              Not Telephoned   Telephoned
    Male                                             46%              46%

    F ema 1 e                                        54%       102    54%


            Chi-sq    are=O. 002 p=O. 96

    Membership status and        duration:
                                              Not Telephoned   Telephoned
    Acti ve, more than      1 year                   60.        108   57%
    Acti ve, less than      1 year                   15.              17%
    Termina ted                                      24. 1 %          26%

            Chi-square=0. 41   p-O. 82

    Age

                                              Not Telephoned   Telephoned
    Under 60

    61-70                                            19.              21. 7%

    81 and over                                      22.              23.
            Chi-square=1. 67   p=O. 64

    State of residence:


                                             Not Telephoned    Telephoned
    Not FL residents
    FL residents                             155     96.       186    98.
            Fisher'   s exact test p=O .

The distributions of these variables in the " telephoned" and " not
telephoned" groups are not significantly different 1 therefore, we
do not expect that the basic results of the survey would have been
different if we had interviewed all of the beneficiaries by
telephone.
              APPENDIX C



HCFA Comments on the OIG Draft Report


 Internationa1 Medical Centers (IMC)

     Service Delivery Evaluation

./
. \   .,,         - ,--"- -.--.,               ._----,­                                                                     - -------

                                                                                                                  C!llh CarF.-
                  DEPARTo                 T OF HEALTH &. Hl' '\A                  SERVII                       Ftnanc",y Admln.!.tratlon


      ,.;t
                                                                                                   Memorandum
      Dalf'


      From
       Wiliam L. Roper , M.               D.       . t"
                  Administrator LL l. 




      'S:.bJect   OIG Draft Report-International Medical                              Centers (IMC) Service Delivery Evaluation
                  (P-12-86-00096)
                  The Inpector General

                  Office of the Secretary

                       As requested, we have reviewed the draft service delivery evaluation on
                  IMC and offer the following comments on the OIG' s recommendations.
                           HCF A should send notices to al IMC enrollees (or have IMC send notices)

                           to fuly disclose what IMC does not cover , and to explain I"C' s policy on

                           out-of-plan care

                           During discusions with OIG staff, we confirmed that the notices referred
                           to in this recommendation are the lock-in notices sent only to new enrollees.
                           We have recently revised the lock-in notice to specify clearly that beneficiaries
                           should contact HCF A if they believe they have not enrolled in an HMO.
                           The notice suggests that beneficiaries should read the written material
                           provided by the health plan to make sure they understand their appeal rights.
                           It alo explains the lock-in provision and the out-of-plan procedues.
                           Because of these recent revisions, we believe there is no need to modify
                           the notice further to include a description of what is not covered. Also,
                           al HMO/CMP marketing material, including IMC' s, wil be reviewed under
                           the Consolidated Omnibus Budget Reconcilation Act (COBRA) provisions.
                           In addition, information given to plan members Is reviewed during olHite

                           monitoring visits. If any material is misleading or confusing, both HCFA

                           and the State official wil require that IMC withdraw and/or revise such

                           material.

                           HCF A should revise the lock-in notice to advise the beneficiary                       that   Medicare
                           is making a monthly payment to IMC on his or her behalf.

                           We cocur with th remmendation                               an wi revi th loc-in notice

                           to indicate that Medcae makeS. paent                              eaehmonth -    the HMO to

                           cover beefits            provide by th HMO. 

                           HCF A should re-xamine curent policies for out-of-plan servces for beneficiaries
                           that spend 60 days a year outside the service area.
                           Managed care is the basic premise upon which the HMO                            oncept was founded.

                           The lock-in requirement goes hand-in-hand with the idea of managed care.
                           The lock-in provision and how it affects out-of-plan and out-of-area coverage
                           is stressed more than any other facet of the TEFRA risk progam in
                           of our monitoring activities.
.,



     Page 2 - The Inspector General

          We do not believe that our policy needs to be changed. We recognize that
          the lock-in requirement may place responsibilities upon a beneficiary that
          he/she may not want to bear, and this is one of the primary reasns that
          we indicate that HMOs/CMPs are an    alternative to the fee-for-ervice
          system and not necessarily the service delivery mode of choice for every
          beneficiary.
          Thank you for the opportunity to comment on this draft   report.
